Department of Homeland Security
   Ofﬁce of Inspector General


      The DHS Personnel Security Process





OIG-09-65                             May 2009
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     May 7, 2009


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the department’s personnel
security program. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


     Overview of Personnel Security ....................................................................................2 


     Mandated Requirements ................................................................................................8 


Results of Review ..............................................................................................................11


     Consolidation of the Intake Process.............................................................................11 


     Alignment of Personnel Security Policies ...................................................................17 


     Coordination of Key Operations..................................................................................25 


Management Comments and OIG Analysis ......................................................................37 


Appendixes
     Appendix A:          Purpose, Scope, and Methodology........................................................47 

     Appendix B:          Management Comments to the Draft Report ........................................48 

     Appendix C:          Background Investigations ....................................................................74 

     Appendix D:          General Personnel Security Process......................................................75 

     Appendix E:          Component Specific Personnel Security Information ...........................77 

     Appendix F:          Major Contributors to This Report ........................................................86 

     Appendix G:          Report Distribution................................................................................87 

Table of Contents 


Acronyms and Abbreviations
  CBP      Customs and Border Protection
  CFR      Code of Federal Regulation
  CHCO     Chief Human Capital Office
  OCSO     Office of the Chief Security Officer
  DAE      disaster assistance employee
  DHS      Department of Homeland Security
  DNI      Director of National Intelligence
  EOD      entry-on-duty
  e-QIP    electronic Questionnaire for Investigative Processing
  FBI      Federal Bureau of Investigation
  FEMA     Federal Emergency Management Agency
  FLETC    Federal Law Enforcement Training Center
  FTE      full-time equivalent
  HR       human resources
  ICE      Immigration and Customs Enforcement
  IRTPA    Intelligence Reform and Terrorism Prevention Act of 2004
  ISMS     Integrated Security Management System
  JRT      Joint Reform Team
  MD       Management Directive
  NAC      National Agency Check
  NACI     National Agency Check with Inquiries
  OIG      Office of Inspector General
  OMB      Office of Management and Budget
  OPM      Office of Personnel Management
  PAC      Performance Accountability Council
  PD       position description
  PerSec   Personnel Security Office
  PO       Program Office
  PSD      Personnel Security Division
  SECCEN   United States Coast Guard Security Center
  TSA      Transportation Security Administration
  USCG     United States Coast Guard
  USCIS    United States Citizenship and Immigration Services
  USSS     United States Secret Service
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                This report assesses the effectiveness and efficiency of the
                Department of Homeland Security’s personnel security programs.
                At the creation of the Department of Homeland Security, the
                Office of Security was given oversight of component personnel
                security programs. In 2005, the Office of Security, Personnel
                Security Division, was instructed to develop departmental
                personnel security policies and procedures. Department of
                Homeland Security Management Directive 11080 requires
                components to collaborate, participate, and recognize the shared,
                related, and interdependent responsibility to provide effective and
                efficient personnel security services to the department.

                Department of Homeland Security personnel security offices are
                performing similar functions but use different policies throughout
                the personnel security process. Across the department,
                components strive to provide quality results in a timely manner but
                often are delayed by applicants, overwhelmed by customer service
                requests, restricted by database functions, and limited by
                information availability. The personnel security process is
                complicated. Application of reciprocity requires unification of
                Department of Homeland Security financial criteria, combination
                of temporary hiring requirements, and standardization of
                adjudication training. Further, department personnel security
                programs would benefit if better relationships could be established
                between the Office of Personnel Management and the Department
                of Homeland Security Chief Human Capital Office. The
                Department of Homeland Security personnel security program
                could be made more efficient and effective by consolidating the
                personnel security intake process, standardizing personnel security
                policies, and establishing better relationships.

                We are making 20 recommendations to improve the Department of
                Homeland Security’s personnel security process.




                       The DHS Personnel Security Process

                                    Page 1
Background
    Overview of Personnel Security
           All federal government positions require a risk and sensitivity designation.
           The highest level of risk or sensitivity determines the type of background
           investigation required. The greater the risk or sensitivity inherent in the
           position, the more extensive a background investigation is required. Once
           designations are made, the background investigation can be initiated and
           reviewed for suitability. With a favorable suitability determination, an
           applicant can be hired. Figure 1 illustrates the general personnel security
           process.
     Figure 1. The Personnel Security Process




     Source: OIG, derived from multiple sources.




                            The DHS Personnel Security Process

                                          Page 2
________________________________________________________________________________________________



                            Risk Designation

                            Risk designation is based on an evaluation of the potential adverse
                            effect that a position may have on an agency. As a result, position
                            risk designation guides the personnel security process. Personnel
                            security specialists closely review the position description (PD), a
                            written statement of the major duties, responsibilities, and
                            supervisory relationships of the position. Human resource (HR)
                            offices designate the level of position risk as the low, moderate, or
                            high. The risk level corresponds to the appropriate type of
                            background investigation, as shown in Figure 2.

                            Figure 2. Position Risk and Background Investigation
                                             Position Risk and Background Investigation
                                       Low Risk                National Agency Check with Inquiries
                                    Moderate Risk              Minimum Background Investigation
                                     High Risk                      Background Investigation
                            Source: OIG, derived from multiple sources.

                            Position Sensitivity

                            As shown in Figure 3, position sensitivity determines whether
                            access to classified information is required. Sensitivity is reviewed
                            in addition to risk designation. There are two types of federal
                            government positions: Public Trust and National Security. Public
                            Trust positions may involve policy making, law enforcement
                            duties, or control of financial records, or may demand a significant
                            degree of public confidence in the employee.1 National Security
                            positions are those in which the employee needs access to
                            classified national security information to perform the duties of the
                            position.2




1
    Title 5 Code of Federal Regulations 731.106(b).
2
    Title 5 Code of Federal Regulations 732.102.

                                     The DHS Personnel Security Process

                                                      Page 3
________________________________________________________________________________________________



                            Figure 3. The Sensitivity Level Designation
                                                      Sensitivity Level Designation

                                 Non-
                                                            No access to classified information
                               Sensitive

                              Noncritical      Access to Secret or Confidential information and may
                               Sensitive             adversely affect overall operations of DHS
                                              Access to Top Secret information; investigative duties,
                                                 involvement with personnel security clearances or
                                Critical
                                                boards; or other national security positions that may
                               Sensitive
                                                 adversely affect the overall operations of DHS and
                                                                    national security
                                              Access to intelligence-related Sensitive Compartmented
                                Special
                                                Information, the misuse of which may gravely affect
                               Sensitive
                                                    overall DHS operations and national security
                            Source: OIG, derived from multiple sources.

                            The risk and sensitivity designation determines the type of
                            background investigation required. The Office of Personnel
                            Management (OPM) developed the minimum requirements for the
                            scope of the investigations used to grant access to classified
                            information.3 At any time, if the initial background investigation
                            has not been done at the required level, a new investigation will be
                            required. With approval, an agency may do more than what is
                            required for a basic background investigation on a position, but not
                            less.

                            Suitability

                            Risk and sensitivity designations are specific to each position, not
                            to an employee. In contrast, suitability is an evaluation of the
                            fitness the character and trustworthiness of the individual for
                            the position. Suitability adjudication considers only an
                            individual’s personal conduct. OPM defines suitability as:

                                     Identifiable character traits and conduct sufficient to
                                     decide whether an individual is likely or not likely to be
                                     able to carry out the duties of a federal job with
                                     appropriate integrity, efficiency, and effectiveness.4

                            The suitability determination is a process that subjects employees’
                            personal conduct to evaluation throughout their careers. Suitability
                            is often confused with position qualifications. Qualification
                            determinations are based on the individual’s experience, education,
                            knowledge, skills, and abilities, while suitability involves an
                            assessment of past and present conduct. The assessment is
3
    OPM Federal Investigative Notice Letter No. 97-02, July 29, 1997. 

4
    OPM Suitability Primer, 2007. www.archives.gov/isoo/oversight-groups/nisp/opm-suitability-primer.pdf. 


                                     The DHS Personnel Security Process

                                                   Page 4
________________________________________________________________________________________________



                        intended to establish a reasonable expectation that the individual
                        will protect the integrity or promote the efficiency of the agency.

                        An initial suitability determination includes a preliminary check of
                        credit, name, address, education, and fingerprints to establish
                        whether the applicant can perform the duties without
                        compromising national security or public trust. If an individual
                        successfully clears preliminary checks, the applicant is eligible for
                        an interim security clearance. Interim clearances can be granted
                        pending the completion of the full background investigation and
                        adjudication for the final clearance. If unfavorable information is
                        identified on the application form or during the background
                        investigation, the interim clearance may not be issued or can be
                        revoked. In some agencies, applicants are reviewed multiple times
                        during their probationary period. The full adjudication process
                        examines a sufficient period of a person’s life to affirm that the
                        individual is an acceptable risk. Each agency, after reviewing all
                        available information, determines the degree of acceptable risk and
                        judges each case on its own merits. Final determinations remain
                        the responsibility of the hiring agency.

                        The suitability determination recognizes that there may be adverse
                        elements in an individual’s past conduct that would not be relevant
                        to the federal position to which the individual is applying.
                        Incidents of previous bad conduct, such as driving while
                        intoxicated, possessing or using marijuana, or experiencing
                        indebtedness, do not automatically disqualify an applicant for
                        federal employment. These types of incidents may be assessed to
                        determine whether they are sufficient in nature and gravity to result
                        in an unsuitable determination for federal employment in a
                        particular position. In fact, even individuals with a criminal
                        conviction can be hired as long as they meet the specific suitability
                        requirements for the particular position. For example, an applicant
                        convicted of battery could be deemed suitable for a clerical
                        position. However, the same applicant might be unsuitable for a
                        law enforcement position that requires the employee to carry a
                        firearm. Adjudicators carefully analyze factors that may mitigate
                        the conduct. The nexus between the conduct and the position is
                        the determinant.

                        Title 5, Code of Federal Regulation (CFR) Part 731, established
                        factors that are used to make a determination of suitability. Part
                        732 set forth requirements to determine national security positions.
                        Issues discovered during a background investigation are the basis
                        for disqualification. Adjudicators consider types of conduct that
                        could be incompatible with the core duties of a position. The 10

                                The DHS Personnel Security Process

                                             Page 5
________________________________________________________________________________________________



                        types of conduct issues shown in Figure 4 can be used to screen
                        candidates.5
                        Figure 4. Type of Conduct Issues
                                                 Type of Conduct Issues
                                                        Intoxicants
                                                         Drug use
                                                Financial irresponsibility
                                            Criminal and immoral conduct
                                                       Dishonesty
                                             Disruptive or violent behavior
                                        Employment misconduct, negligence
                                           Firearms and weapons violations
                                                  Statutory debarment
                                    Miscellaneous agency-specific requirements
                        Source: OPM Suitability Referral Chart.

                        Each issue identified by an adjudicator is assigned a grade between
                        A and D based on seriousness, as shown in Figure 5. Any gradable
                        issue may be considered a basis for determining an individual
                        unsuitable.

                        Figure 5. Seriousness of Issues
                         Issue
                                     Seriousness                      Issue Description
                         Level
                                                         Conduct or issue, standing alone,
                            A            Minor           would not be disqualifying under
                                                             suitability for any position
                                                         Conduct or issue, standing alone,
                           B           Moderate        would probably not be disqualifying
                                                         under suitability for any position
                                                         Conduct or issue, standing alone,
                           C          Substantial      may probably be disqualifying under
                                                             suitability for any position
                                                         Conduct or issue, standing alone,
                           D            Major              would be disqualifying under
                                                             suitability for any position
                        Source: OPM; U.S. Department of Agriculture Graduate School, Suitability
                        Adjudication, Version 2.1.

                        Suitability determinations are reevaluated periodically. This
                        process is especially important for individuals who have been
                        issued security clearances at the Secret or Top Secret level, as the
                        investigation determines their trustworthiness for continued access
                        to classified information. An updated Standard Form 86 must be
                        completed for the adjudication process. If adverse information,

5
 Some DHS components have additional congressional mandated requirements that must also be
considered.

                                 The DHS Personnel Security Process

                                               Page 6
________________________________________________________________________________________________



                           such as excessive bad debt, is discovered in the reevaluation, the
                           adjudicator can make an unfavorable suitability determination.
                           Continuous reevaluation of individuals employed by the federal
                           government ensures that only the most qualified and trustworthy
                           individuals remain employed.

                           Security Clearance

                           A security clearance is a determination that a person can access
                           classified information.6 The decision to grant a security clearance
                           can be made after the final suitability determination. Security
                           clearance determinations are based on the information from
                           preliminary checks, gathered from the background investigation,
                           and evaluated by an adjudicator.7 Figure 6 lists the three security
                           clearance levels.
                           Figure 6. Security Clearance Levels
                                 Level              Access to Information                Reinvestigated
                                               Information that reasonably
                                               could be expected to cause              Reinvestigation
                             Confidential          damage to the national              conducted every
                                                   security if disclosed to               15 years
                                                   unauthorized sources
                                                Information that reasonably
                                                could be expected to cause             Reinvestigation
                                Secret             serious damage to the               conducted every
                                                                                                   8
                                               national security if disclosed             10 years
                                                  to unauthorized sources
                                               Information that reasonably
                                               could be expected to cause
                                                                                       Reinvestigation
                                               exceptionally grave damage
                              Top Secret                                               conducted every
                                                 to the national security if
                                                                                           5 years
                                                 disclosed to unauthorized
                                                          sources
                           Source: OIG, derived from multiple sources.

                           Employees do not own their security clearance. A security
                           clearance is a privilege granted by the federal government, and it
                           can be revoked at any time if unfavorable information about the
                           employee is discovered. Employees who remain employed but no
                           longer require access to classified information can have their
                           clearances administratively downgraded or withdrawn. If
                           classified access is required again, the clearance can be reissued

6
  Executive Order 12598, Classified National Security Information, April 17, 1995; OPM Federal 

Investigative Notice Letter No. 97-02, July 29, 1997. 

7
  Security clearance eligibility is based on information related to foreign influence, foreign preference, 

sexual behavior, psychological conditions, or other outside activities. 

8
  These requirements may change based on work being conducted at the federal level by the Joint Security 

and Suitability Reform Team.


                                    The DHS Personnel Security Process

                                                   Page 7
________________________________________________________________________________________________



                        provided the background investigation has not expired. Agency
                        clearances are terminated when an employee permanently leaves
                        the agency; however, the new agency may use the background
                        investigation already performed by the former agency to issue a
                        security clearance.

                        Reciprocity

                        Reciprocity occurs when an agency accepts a security clearance
                        granted to an individual by a former agency.9 The concept of
                        security clearance reciprocity has existed for decades. However,
                        because agencies have specific missions, reciprocity can be
                        difficult to achieve. Reciprocity is especially complicated for
                        defense, intelligence, and law enforcement agencies.


        Mandated Requirements
                Personnel security programs were established in 1953 by Executive
                Order 10450 and enhanced in 1995 by Executive Order 12968. These
                orders set the standards for suitability and security clearance processes for
                the federal government, and the processes were reformed in 2008 by
                Executive Order 13467. In addition, Title 5 CFR Part 731 and Part 732, as
                amended, define specific suitability factors that must be considered when
                adjudicating applicants. The Intelligence Reform and Terrorism
                Prevention Act of 2004 (IRTPA) sets goals and timelines for granting
                clearances, ensuring reciprocity, and establishing an integrated database
                for completed background investigations.10 DHS has also developed
                management directives to implement federal requirements across the
                department.

                Executive Orders Governing Personnel Security

                Executive Order 10450 required agency heads to establish effective
                security programs and set minimum background investigation
                requirements for federal employment based on risk designation.
                Executive Order 12958 ensured that certain information related to national
                interest is maintained through a classification system. Executive




9
  OMB Memorandum, Reciprocal Recognition of Existing Personnel Security Clearances, December 12, 

2005. 

10
   Public Law 108-458. 


                                 The DHS Personnel Security Process

                                              Page 8
________________________________________________________________________________________________



                Order 13467 reformed the use of reciprocity across the government to
                ensure cost-effective, timely, and efficient protection of national interests.
                Exceptions to the reciprocity standard are allowed for certain highly
                sensitive programs.

                United States Code of Federal Regulations

                OPM has oversight of federal personnel security programs, including
                background investigation programs. Its authority is delegated primarily
                through regulations contained in Title 5 CFR Part 731, “Suitability,” and
                Part 732, as amended, “National Security Positions.” Part 731 established
                the process and procedures for determining suitability eligibility for
                federal employment, and Part 732 established both the requirements for
                national security positions and the criteria for adjudicating them.

                The Intelligence Reform and Terrorism Prevention Act of 2004

                Following the events of September 11, 2001, Congress criticized the
                amount of time it took to hire federal employees. IRTPA contained
                specific processing deadlines for completing the personnel security
                investigation and adjudicatory phases. OPM was designated the central
                depository for all federal government background investigations and
                adjudications. OPM developed the electronic Questionnaires for
                Investigations Processing (e-QIP) to manage applicant personnel security
                information across the federal government.

                e-QIP allows federal job applicants to electronically enter, update, and
                transmit their personal investigative data to the hiring agency. Applicants
                complete personnel security forms, including the Standard Forms 85
                Questionnaire for Non-Sensitive Positions, 85P Questionnaire for Public
                Trust Positions, and 86 Questionnaire for National Security Positions,
                through e-QIP. Figure 7 describes IRTPA processing requirements.

                Figure 7. The 2004 IRTPA Processing Requirements
                      Phase               December 2006            December 2009
                  Investigation
                                              90 days                 40 days
                   Completed
                  Adjudication
                                              30 days                 20 days
                   Completed
                                       120 days on 80% of all   60 days on 90% of all
                      Total
                                            applications            applications
                Source: OIG, derived from IRTPA.

                Since the implementation of IRTPA, OPM has made two other
                improvements to background investigation processes: the Clearance
                Verification System, which shares clearance records among agencies, and
                Imaging, an electronic document project to reduce paper use. With e-QIP,

                                The DHS Personnel Security Process

                                             Page 9
________________________________________________________________________________________________



                  the three new programs comprise OPM’s “e-Clearance initiative.” As of
                  March 2007, all federal government agencies had signed agreements with
                  OPM to use e-QIP for national security clearance investigation requests.

                  Department of Homeland Security Management Directives

                  On June 30, 2008, DHS Management Directive (MD) 121-01 assigned
                  authority for DHS security programs to the Office of the Chief Security
                  Officer (OCSO). The directive requires the OCSO to oversee DHS
                  personnel security policies, programs, and standards; deliver security
                  training and education to DHS; and provide personnel security support to
                  DHS components. The directive also established a CSO Council
                  responsible for the development of a departmental security strategic plan,
                  establishment of priorities for the security program, and integration of
                  department-wide security programs.

                  MD 11050.2 set DHS procedures for designating sensitivity, investigative
                  standards for security clearances, and suitability determinations. The
                  directive defined minimum standards, but did not prohibit additional
                  requirements based on mission criticality. The directive made the DHS
                  OCSO responsible for ensuring the issuance, implementation, and
                  compliance of written policies.

                  MD 11080 required that component heads support and collaborate with
                  the OCSO. The directive set three procedural guidelines for DHS’
                  security functional integration:

                      1.	 Standardization of security policies and appropriate procedures;

                      2.	 Continued consolidation and integration of systems supporting
                          DHS’ security functions; and

                      3.	 Consolidation of organizations that perform the same function.11

                  The DHS Personnel Security Division (PSD) has drafted an Instruction
                  Handbook on Personnel Suitability and Security Program. The
                  publication establishes procedures, program responsibilities, minimum
                  standards, and reporting protocols for the department personnel security
                  programs. The instruction also provides information on personnel security
                  authorities and responsibilities, requirements for background
                  investigations, and adjudications.




11
     DHS Management Directive Number 11080.

                                 The DHS Personnel Security Process

                                              Page 10
________________________________________________________________________________________________



Results of Review
          All full-time DHS employees receive a background investigation and
          adjudication. Approximately 70,000 of the 208,000 DHS employees occupy
          positions requiring access to classified information. Some components are
          responsible for conducting their agency’s personnel security functions, but must
          report to the OCSO. Many components have developed similar processes for
          initiating the personnel security process, resulting in duplicative efforts
          throughout the department. The key difference occurs in the application of
          mission-specific suitability standards during adjudication. A number of personnel
          security processes throughout DHS could be combined to create a more efficient
          and effective process. DHS PSD, as part of the OCSO, has the authority to make
          significant changes to the personnel security process across the department. The
          establishment of a consolidated DHS personnel security intake process would
          align personnel security policies and better coordinate key DHS operations.

          Consolidation of the Intake Process
                   Across DHS, individuals selected for positions are required to complete e-
                   QIP. The e-QIP form has consent pages that require the applicant’s
                   signature. The pages must be mailed to the agency upon completion of e-
                   QIP. Preliminary checks can be conducted once the hiring agency
                   receives notification that e-QIP has been completed and receives all
                   documentation.

                   Preliminary checks are the initial verifications done by an agency to
                   determine whether an applicant meets the minimum hiring requirements.
                   The agency may also conduct other checks if it has the capabilities. If not,
                   the agency can request additional checks when submitting a National
                   Agency Check with Inquiries (NACI) request to OPM. The NACI is a
                   search of investigative files and other records held by federal agencies.
                   The selectee’s fingerprints are electronically submitted to the Federal
                   Bureau of Investigation (FBI) for a criminal record check. Components
                   can use the OPM FBI fingerprint check inquiry option, but most submit
                   the fingerprint card directly to the FBI.12 For applicants who have prior
                   federal service and have had a background investigation conducted in the
                   past 5 years, and whose break in service has not exceeded 2 years, the
                   hiring agency will request the previous investigation. In most
                   components, an interim clearance and entry-on-duty (EOD) date can be
                   issued once a selectee has passed the preliminary checks. The component
                   must be satisfied with results from the preliminary checks since the
                   selectee’s background investigation has not yet been fully vetted against
                   the agency suitability standards. Figure 8 illustrates the preliminary
                   checks process.

12
     Requests without an OPM FBI fingerprint inquiry are called National Agency Checks (NAC).

                                    The DHS Personnel Security Process

                                                 Page 11
________________________________________________________________________________________________




        Figure 8. The Preliminary Checks Process




                               6. Preliminary 	                          1. Selected
                                   checks                                 individual
                                 complete.                               completes
                                                                            e-QIP.




              5. Agency
               requests                                                                  2. Signature and
               previous                                                                     fingerprints
             background                                                                     received by
            investigation.                                                                    agency.




                              4. Fingerprints                          3. NACI request
                               submitted to                              submitted to
                                    FBI.                                    OPM.




        Source: OIG, derived from multiple sources.

                         Role of the Selectee

                         DHS personnel security offices agreed that the most time-
                         consuming part of the initiation process involved the selectee. The
                         selectee’s responsiveness dictates when the security process can
                         proceed. Some selectees respond immediately, but components
                         noted that others have taken several weeks to respond or fail to
                         respond at all. The average response time for selectees who do
                         submit their forms in e-QIP is 10 days.

                         Some components have developed mitigating strategies to offset
                         delays caused by the selectee. For example, in one component the
                         hiring program manager is notified if the selectee has not
                         completed e-QIP in 10 days. By keeping the program manager
                         involved, the hiring agency can withdraw the tentative
                         employment offer if the selectee does not complete e-QIP in a
                         timely manner. In another component, the hiring process is
                         discontinued if e-QIP is not completed within 30 days. Offices
                         that have developed these types of selectee response strategies
                         have reduced hiring delays.
                                  The DHS Personnel Security Process

                                                  Page 12
________________________________________________________________________________________________




                        We recommend that the Under Secretary for Management:

                        Recommendation #1: Establish a department wide requirement
                        for selectees to complete e-QIP within a specified number of days,
                        and develop strategies to manage selectees who do not meet the
                        response requirement.

                        Customer Service

                        According to component officials, many selectees have difficulty
                        accessing e-QIP or have questions regarding the online system.
                        System access problems can result from technical or user issues.
                        Six of the nine components included in our review have created a
                        customer service group to address selectee questions. Some
                        components have an 800 number, while others use an e-mail
                        system to address customer service questions. e-QIP customer
                        service groups answer questions daily about forgotten passwords
                        or failed system access. e-QIP problems are not unique to
                        applicants. Often HR offices have issues with e-QIP and cannot
                        access the system.

                        United States Immigration and Customs Enforcement (ICE) has a
                        customer service desk and intake unit responsible for handling
                        customer questions, addressing e-QIP issues, filing, and managing
                        training. In June 2008, the ICE intake unit responded to
                        1,268 phone calls, 2,024 e-mail messages, and 238 walk-in
                        inquiries pertaining to the personnel security process. In the same
                        month, the intake unit received 748 new cases requiring
                        preliminary checks. The Transportation Security Administration
                        (TSA) uses four units Customer Service, e-QIP Customer
                        Service, Customer Review, and Scanning and Scheduling to
                        handle internal and external customer questions on status updates
                        or e-QIP, manage filing, and schedule investigations. TSA
                        officials estimated that their customer service office receives more
                        than 200 requests each day through e-mail, telephone, and fax.
                        The United States Citizenship and Immigration Services (USCIS)
                        answers all incoming inquiries via e-mail or phone. Inquiries are
                        generally from program managers and selectees on the status of
                        applications. In July 2008, USCIS received 252 calls regarding e-
                        QIP, 107 regarding the security process, and 64 regarding
                        applicants who were not selected.




                                The DHS Personnel Security Process

                                             Page 13
________________________________________________________________________________________________



                        We recommend that the Under Secretary for Management:

                        Recommendation #2: Delegate all customer service
                        responsibilities to the DHS Personnel Security Division.

                        Preliminary Checks

                        Each component we reviewed has an internal division dedicated to
                        processing and collecting selectee information to initiate the
                        preliminary checks. Components with the highest volume of
                        incoming cases were forced to develop intake groups or be
                        overwhelmed. Only three components could determine the
                        number of days it took to process intake functions. Some
                        component officials said their components would benefit from an
                        intake function; however, their organizations do not have the staff
                        or funding to support an intake operation. Personnel security staffs
                        with specialized adjudicator training are instead being used to
                        perform basic clerical tasks such as filing documents, answering
                        phones, and compiling selectee information.

                        Some components use a standardized intake process. DHS PSD
                        recently reorganized its process to include a centralized intake
                        function. The intake function was designed to initiate e-QIP,
                        process forms, and conduct preliminary checks. ICE also aligned
                        current staffing resources to form a standardized intake process.
                        Many personnel security specialists noted that the standardized
                        intake process reduced the time that was previously used to
                        complete administrative tasks. Of all the personnel security offices
                        we examined, ICE is uniquely structured to accomplish the IRTPA
                        requirements.

                        According to DHS personnel security officials, implementing a
                        consolidated intake function would require significant funding
                        shifts. However, a centralized department-level personnel security
                        intake processing center could also provide DHS PSD with a way
                        to monitor customer service and intake issues across the
                        department. This function could handle all e-QIP issues and
                        initiate preliminary background checks (fingerprint submission,
                        credit check, citizenship verification, employment, residency, and
                        Selective Service checks). It could request previous investigative
                        files from other agencies when appropriate. It would provide a
                        complete prehire file to the components for their investigation and
                        adjudication. This integrated customer service effort could
                        improve the efficiency of the personnel security process by
                        streamlining functions, eliminating duplication, improving
                        transparency, and enhancing customer service.

                                The DHS Personnel Security Process

                                             Page 14
________________________________________________________________________________________________



                        We recommend that the Under Secretary for Management:

                        Recommendation #3: Create a centralized department-level
                        personnel security intake processing and customer service center
                        within DHS, administered by the DHS Personnel Security
                        Division.

                        Database Functionality

                        Before 2008, components used individual databases to manage
                        casework because DHS did not have a common data management
                        system. Some components used legacy systems, often proprietary
                        software, while others used commercial off-the-shelf software to
                        build case-tracking capacity and meet individual needs. Figure 9
                        lists the different systems in use prior to 2008.

                        Figure 9. The Various DHS Personnel Security Databases
                          Component                                 Data System
                                          Consolidated Tracking System: A proprietary database
                             CBP
                                              used to track clearance and investigation requests
                                         Automated Personnel Security System: A legacy system
                            FEMA                used to track background investigations and
                                                         adjudication determinations
                                             Federal Law Enforcement Training Center Clearance
                                            Database: A Microsoft Access database used to track
                            FLETC         background investigation and clearance information. A
                                                 separate Microsoft database is used to track
                                                  investigations. Both are legacy databases
                                           Security Activities Reporting System: A repository for
                              ICE          more than 150,000 ICE cases that interfaces with some
                                                               other DHS systems
                                             Personnel Security Activities Management System:
                             PSD            A system used to automate the tracking and status of
                                             security clearance checks and associated activities
                                         Background Investigation Tracking System: A Microsoft
                             TSA                Access database that records and tracks case
                                                               processing actions
                                             CHECKMATE: An off-the-shelf system that contains
                            USCG           information on the status of all initiated and completed
                                          background investigations, to include level of clearance
                                            Personnel Security System: A combination of the ICE
                            USCIS           Security Activities Reporting System and the Security
                                                 Operations Reporting and Tracking System
                                              Clearances, Logistics, Employees, Applicants and
                                            Recruitment: A headquarters management system to
                            USSS
                                         track both human resources and personnel security case
                                                                    processing
                        Source: OIG, derived from multiple sources.

                        Increased reporting requirements and tightening timelines caused
                        DHS PSD to develop the Integrated Security Management System
                                The DHS Personnel Security Process

                                             Page 15
________________________________________________________________________________________________



                            (ISMS).13 ISMS is an integrated web-based software system that
                            captures data related to all aspects of suitability determinations and
                            security clearance processing. ISMS is an enterprise-wide system
                            for the entire DHS personnel security operation, and has the ability
                            to support administrative security cases, security violation
                            tracking, and secure document tracking.

                            ISMS is planned to replace the components’ separate data systems.
                            As of November 2008, component conversion to ISMS was being
                            completed in phases. ISMS will allow users to share personnel
                            security information on individual cases and aggregate information
                            for statistical and reporting requirements. ISMS will give users the
                            capability to update information, view case status online, and
                            submit case status inquiries, as well as the ability to report on the
                            number of security clearances issued within the department. DHS
                            PSD, under OCSO, will also be better able to monitor submissions
                            under IRTPA. As of November 2008, DHS PSD was using ISMS,
                            and pilot programs had been launched at United States Customs
                            and Border Protection (CBP) and the Federal Emergency
                            Management Agency (FEMA). The United States Secret Service
                            (USSS) and TSA were discussing strategies to integrate their
                            current systems into ISMS.

                            We recommend that the Under Secretary for Management:

                            Recommendation #4: Consolidate component security
                            information into ISMS.

                            File Transfers

                            Executive orders and OPM regulations require agencies to accept
                            investigations conducted by other federal departments reciprocally.
                            Reciprocity is a process designed to enhance the cost effectiveness
                            of background investigations. However, during fieldwork, DHS
                            component officials complained about the amount of time it took
                            to obtain investigative files within DHS and from other federal
                            agencies. Opinion varied within DHS as to which components
                            took the longest to provide previous background investigations.
                            All components noted the difficulty of obtaining investigative files
                            from law enforcement entities in other federal agencies.

                            ICE personnel security officials stated that they process most
                            routine requests in 5 days. However, if a file had been archived,
                            processing time could extend to 12 days. FEMA officials stated

13
     ISMS is not related to the Integrated Security Information Management System used by TSA.

                                     The DHS Personnel Security Process

                                                  Page 16
________________________________________________________________________________________________



                        that FEMA completes file transfer requests within 7 days. TSA
                        indicated that most file transfers can be completed within hours
                        upon request. USSS processes its file transfer requests in 30 days.
                        The United States Coast Guard (USCG) transfers files within 17
                        days.

                        DHS PSD often processed file requests in 1 day. DHS PSD
                        officials noted that the office does not have difficulty obtaining
                        investigative files from other departments or DHS components.
                        Because DHS PSD is part of headquarters and formally recognized
                        by other federal agencies, information from other federal
                        departments is easier to obtain. If DHS PSD was delegated intake
                        responsibility for the entire department, there should be fewer
                        delays in obtaining previous investigative files from other federal
                        agencies and components.

                        We recommend that the Under Secretary for Management:

                        Recommendation #5: Designate the centralized intake processing
                        center responsibilities for obtaining and coordinating interagency
                        and federal department requests for previous investigation files.


        Alignment of Personnel Security Policies
                DHS components have been using legacy personnel security policies
                developed prior to September 11, 2001. Because DHS has not been
                proactive in developing new security policies, components have developed
                supplemental guidelines. Component officials would like DHS to
                standardize several security policies across the department. The alignment
                of DHS personnel security policies on reciprocity, adjudicator training,
                bad debt minimums, and temporary employees would solidify the DHS
                personnel security processes.

                        Reciprocity Versus Suitability

                        Figure 10 illustrates three situations where mission-specific
                        suitability requirements and reciprocity may be problematic
                        factors. In the first situation, an employee is transferring to a new
                        position much like the former position. In the second situation, the
                        new position has very different suitability requirements owing to
                        the nature of the work. In the third situation, the new position has
                        higher criticality and sensitivity.




                                The DHS Personnel Security Process

                                             Page 17
________________________________________________________________________________________________



  Figure 10. Examples of Mission-Specific Positions and Additional Suitability Requirements
  for Employment




  Source: OIG, derived from multiple sources.

                         The application of reciprocity arises only in cases where an
                         employee is moving from one federal position to another. Each
                         position has its own risk designation and position sensitivity. The
                         thoroughness of the previous background investigation was based
                         on the risk and sensitivity of the original position. The previous
                         background investigation may not meet the requirements of the
                         new position if the new position has a higher risk or sensitivity
                         level. Although some components do not have additional mission-
                         specific requirements and could easily implement reciprocity,
                         many components have very specific mission needs that must be
                         met.

                         Applying Suitability Reciprocity

                         A September 18, 2008, memorandum from the Under Secretary for
                         Management formalized DHS’ commitment to implement
                         suitability reciprocity within headquarters. DHS PSD will honor
                         clearances held by employees in DHS components and from other
                         federal agencies when the requirements for position sensitivity and
                         access to classified information are the same. As of October 2008,


                                  The DHS Personnel Security Process

                                                Page 18
________________________________________________________________________________________________



                       DHS PSD was the only component to outline formally how
                       suitability reciprocity was to be applied within its office.

                       Implementing suitability reciprocity within DHS components will
                       be difficult. The selectee can be evaluated against the specific
                       suitability requirements only once the background investigation is
                       complete. DHS is a national security agency with multiple
                       components, each with its own mission-specific suitability
                       standards based on varied PDs. Following are examples of how
                       suitability affects certain positions:

                           �	 CBP Border Patrol agents are responsible for stemming the
                              flow of illegal drugs into the United States. The agency
                              seized more than 800,000 kilograms of illegal drugs in
                              FY 2007. The opportunity for a Border Patrol agent to
                              engage in illegal drug activity is high. Therefore,
                              applicants are considered unsuitable for Border Patrol
                              employment if it is determined that they have ever had any
                              illegal involvement in the cultivation, manufacturing,
                              distribution, processing, or trafficking of any drug or
                              controlled substance.

                           �	 USCIS employees administer immigration services and
                              benefits, adjudicate asylum claims and petitions for
                              nonimmigrant temporary workers, issue employment
                              authorization documents, and adjudicate and grant lawful
                              permanent resident status and citizenship. USCIS
                              employees verify U.S. citizenship and status of any
                              immediate family members or adults living with selectees
                              and conduct checks on all foreign-born applicants,
                              relatives, and close associates. The nature of USCIS duties
                              makes it imperative that its employees have no association
                              with illegal immigration activities.

                           �	 TSA Transportation Security Officers are responsible for
                              administering airport checkpoints across the United States.
                              Because of their involvement with the flying public, and
                              document and baggage checks, it is imperative the officers
                              have been vetted for theft, burglary, or any interpersonal
                              issues.

                           �	 USSS special agents protect national leaders, visiting heads
                              of state and government, and secure national security
                              special events. It is imperative that USSS agents possess
                              the utmost integrity. Although most background
                              investigations do not require polygraph and medical

                                The DHS Personnel Security Process

                                             Page 19
________________________________________________________________________________________________



                                examinations, USSS requires its selectees to complete these
                                examinations satisfactorily.

                        To bring efficiency to the personnel security process, Executive
                        Order 13467 clarified suitability reciprocity. The Executive order
                        requires a background investigation for new security clearances,
                        for clearances when the previous investigation is more than 5 years
                        old, or for clearances when the previous investigation is not
                        consistent with the position sensitivity level of the new position.
                        Agencies are permitted to use additional mission-specific
                        suitability requirements, but they must have the approval of either
                        the OPM Suitability Executive Agent or the Security Executive
                        Agent, as appropriate.

                        We recommend that the Under Secretary for Management:

                        Recommendation #6: Develop departmental guidance to apply
                        reciprocity as outlined in Executive Order 13467.

                        Recommendation #7: Designate the DHS Office of Security,
                        Personnel Security Division as the DHS representative to the
                        Suitability or Security Executive Agent to facilitate approval of
                        additional DHS component suitability requirements.

                        Understanding Suitability Reciprocity

                        Most program managers are unaware of additional suitability
                        requirements for certain positions. Personnel security offices,
                        especially those with law enforcement responsibilities, must
                        consider additional suitability requirements. From the program
                        manager perspective, a security clearance is simply a background
                        investigation. However, personnel security standards for a
                        component may require additional suitability criteria that cannot be
                        evaluated until a full background investigation is completed.

                        The personnel security offices understand the program managers’
                        desire to bring selectees on quickly but feel they are being asked to
                        place national security at risk simply to meet hiring requirements.
                        Across components, it was evident that the personnel security
                        offices were committed to ensuring that only fully vetted selectees
                        received a favorable final adjudication.

                        Component personnel security offices said it would be helpful to
                        train program managers on the personnel security process. A
                        training program that provided an overview of what personnel
                        security is, how suitability is applied, and why extra processing

                                The DHS Personnel Security Process

                                             Page 20
________________________________________________________________________________________________



                         time is needed in some cases would increase program managers’
                         understanding of the personnel security process. Program manager
                         training on the personnel security process should also reduce the
                         number of customer service inquiries.

                         We recommend that the Under Secretary for Management:

                         Recommendation #8: Develop a training program for program
                         managers on the personnel security process.

                         Financial Disqualifiers

                         As part of the application process, selectees are asked about their
                         financial record. This includes whether they have had wages
                         garnished or property repossessed, have filed for bankruptcy, or
                         have other unpaid debts. Selectees must explain any delinquencies
                         arising from federal taxes, loans, overpayment of benefits, and
                         other debts to the federal government. They must also report
                         defaults on federally guaranteed or insured loans such as student
                         and home mortgage loans. The standards of ethical conduct for
                         employees of the executive branch states:

                                …employees shall satisfy in good faith their obligations as
                                citizens, including all just financial obligations…especially
                                those such as federal, state or local taxes…that are
                                imposed by law.14

                         Adjudicators must consider the nexus between the debt, the
                         agency’s mission, and the position duties. Life events such as
                         divorce or serious medical conditions that resulted in the
                         accumulation of bad debt can be mitigated. Adjudicators are
                         looking for a demonstrated intent by the selectee to rectify the
                         debt. If the effort is not evident, an adjudicator can determine the
                         selectee to be unsuitable strictly on the presence of the bad debt.
                         The decision is based on the level of risk to national security and
                         possibility that the selectee could be blackmailed or tempted to
                         engage in illegal acts to generate funds.

                         In setting bad debt criteria, some components linked the financial
                         criteria to specific positions within the agency. Other components
                         established debt ceilings and set a number of months or years after
                         which the selectee must be debt free. These ceilings depended on
                         the sensitivity of the position and included consideration of the
                         security clearance.

14
     Title 5 CFR 2635.

                                 The DHS Personnel Security Process

                                              Page 21
________________________________________________________________________________________________




                        Components use different non-risk based benchmarks to assess a
                        selectee’s financial status. For example, CBP reviews individuals
                        with past due debts of $5,000 or more, unpaid judgments, or court-
                        ordered obligations. USCG has established its outstanding debt
                        threshold at $3,000. TSA uses a cumulative delinquent debt of
                        $5,000 or more. Delinquent debt can be (1) any past due accounts
                        that have been sent from a creditor to a collection agency or
                        attorney for action; (2) any unpaid balance that has been reported
                        as a loss to a creditor; (3) a repossession; (4) a court judgment that
                        has not been satisfied; (5) a foreclosure on property or assets; or
                        (6) any debts that have not been dismissed through a bankruptcy
                        agreement. However, the amount of bad debt is not an automatic
                        disqualifier since components use all available information to
                        adjudicate a case. Figure 11 illustrates particular financial debt
                        thresholds required by specific components.

                        Both FEMA and USCIS want to qualify more applicants. FEMA
                        has increased its acceptable debt limit to $10,000 if the debt is 3 or
                        more years old or $5,000 if the debt is fewer than 3 years old.
                        USCIS raised its debt ceiling from $1,000 to $3,000.

                        Figure 11. Financial Threshold by Component
                            Component                     Maximum Bad Debt
                               CBP                            $5,000
                                                   Fewer than 3 years old: $5,000
                              FEMA
                                                  Three or more years old: $10,000
                              FLETC                              $3,000
                               ICE             120 days or more delinquent: $5,000
                               PSD                               $3,500
                               TSA                               $5,000
                              USCG                               $3,000
                              USCIS                              $3,000
                              USSS                All bad debt must be mitigated
                       Source: OIG, derived from multiple sources.

                        Component officials expressed an interest in having a common
                        maximum bad debt threshold across the department. Except for
                        FEMA, the components’ maximum bad debt limits are similar.
                        Components should have the latitude to increase the maximum bad
                        debt requirement for their agency. Setting a common financial
                        threshold across the department would facilitate reciprocity for
                        intra-DHS assignments when the selectee’s job series and
                        clearance level match the position’s requirements.



                                The DHS Personnel Security Process

                                             Page 22
________________________________________________________________________________________________



                        We recommend that the Under Secretary for Management:

                        Recommendation #9: Establish a maximum bad debt amount for
                        the department, and permit components to use less but not more
                        than the maximum amount.

                        Temporary Staff and Interns

                        Temporary DHS employees and interns are generally subjected to
                        less stringent background investigation requirements. There were
                        no DHS standards for processing temporary or intern employees,
                        so components have developed their own standards. Many DHS
                        temporary employees and interns transition to full-time equivalent
                        (FTE) employees at agencies. Inconsistent hiring processes for
                        temporary or intern positions can add time to the hiring process.

                        While most components require only preliminary checks for
                        interns, some components process interns for secret clearances.
                        The Federal Law Enforcement Training Center (FLETC) processes
                        its student interns and summer hire program employees using a
                        NAC. Requirements for FEMA’s disaster assistance employees
                        (DAEs), a category of nonpermanent excepted service employees
                        who are deployed during disasters, are legislated. DAEs do not
                        hold security clearances because of the temporary nature of their
                        disaster relief duties. FEMA vetting requirements for its
                        temporary disaster workers were based on the length of the
                        deployment period. DAEs with service of 180 days or more are
                        vetted in the same manner as full-time federal civilian employees
                        at FEMA. TSA performs a prehire suitability determination on all
                        interns, summer hires, or volunteer personnel. Only if the
                        individual will be returning to TSA for further assignment is the
                        appropriate background investigation conducted. USSS not only
                        conducts a limited background investigation on its student interns
                        but also requires a favorable suitability and security clearance
                        adjudication.

                        We recommend that the Under Secretary for Management:

                        Recommendation #10: Set minimum personnel security
                        processing standards for temporary employees in DHS, to include
                        student interns and summer hire program employees.




                                The DHS Personnel Security Process

                                             Page 23
________________________________________________________________________________________________



                        Adjudication Training

                        Personnel security adjudicators review the completed background
                        investigation and use appropriate suitability requirements to make
                        a final determination on the character of the selectee. To make a
                        final determination and issue a clearance, the adjudicator must be
                        confident that the selectee does not pose a threat to national
                        security. The ability to make a determination that is sustainable in
                        court is vital to the adjudication position.

                        The emphasis on adjudication training differs by component. DHS
                        adjudicators receive training online, on the job, or in a classroom.
                        The adjudication courses review adjudication guidelines and
                        personnel investigations, and provide instruction on resolving
                        cases with complex issues.

                        Each component personnel security office has developed
                        individual adjudicator training requirements. For example, FEMA
                        adjudicators take 24 hours of training online through DHS and
                        other sources. As of July 2008, FLETC requires adjudicators to
                        take a class on fraudulent document detection and complete
                        external training courses. In contrast, ICE has an internal training
                        program that it augments with several external training resources.
                        ICE hosts on-site training sessions for adjudicators and sends
                        adjudicators to the United States Department of Agriculture
                        Graduate School of Management, OPM training sessions, and a 4­
                        hour PSD class. TSA has also developed an in-house adjudication
                        training program. Federal adjudication staff at TSA is required to
                        attend beginning and advanced adjudication training on-site as well
                        as that conducted by OPM. USCIS adjudicators receive training
                        developed and taught by USCIS adjudication supervisors
                        immediately upon assignment to the position. To ensure that those
                        who provide customer services understand the adjudication
                        process, USCIS provides an overview to its administrative support
                        employees.

                        Since adjudication determinations are subject to review or appeal
                        and may be overturned in legal proceedings, the components must
                        ensure that adjudications are made according to statutory and
                        agency mandates. Unfavorable decisions are made to promote the
                        efficiency of government service, and only after giving the
                        individual due process rights. Unfavorable suitability decisions
                        may be appealed to the Merit Systems Protection Board. Properly
                        documented unsuitable determinations must meet legal standards
                        in order to sustain denial. Many components conduct internal
                        reviews on all denials and other adjudicative decisions to identify

                                The DHS Personnel Security Process

                                             Page 24
________________________________________________________________________________________________



                         areas where training or procedural changes would enhance
                         adjudication decisions. These reviews usually include staff
                         attorney examinations for legal sufficiency of the adjudicator’s
                         written decision to deny the selectee.

                         DHS OCSO has directed the DHS Training and Operations
                         Security Division to provide training and awareness on mission-
                         based security policies and procedures. The training office has
                         dedicated one FTE to produce personnel security-related training
                         courses for personnel security staffs. Using instruction developed
                         in PSD by adjudicators, the training office has developed courses
                         to address issues such as foreign influence, suitability, types of
                         security clearances, and basic personnel security.

                         Components provide their adjudicators with the tools necessary to
                         make sound determinations. Several components told us that they
                         had expressed to PSD a desire for a DHS adjudicator training
                         certification program. In light of the Executive order requirements
                         for reciprocity, a formal DHS adjudicator training program would
                         provide assurance to components that DHS adjudicators have been
                         trained to the same standard.

                         We recommend that the Under Secretary for Management:

                         Recommendation #11: Develop a formal DHS adjudicator
                         training and certification program.


        Coordination of Key Operations
                 Consolidating the intake function and aligning policies within the
                 personnel security programs would give DHS an identifiable entity to
                 coordinate actions with other federal agency and component personnel
                 security offices. The coordination of key personnel security operations by
                 DHS PSD would give components a single liaison for interaction with
                 OPM. DHS PSD would be better able to work with the DHS Chief
                 Human Capital Office (CHCO) on position designations and staffing
                 needs.

                         Interaction with the Office of Personnel Management

                         OPM is the federal government’s human resource agency.15
                         OPM classifies federal positions according to job duties and

15
  Executive Order 12107, December 28, 1978; Civil Service Reform Act of 1978 and Section 403 of
Reorganization Plan Number 2 of 1978.

                                  The DHS Personnel Security Process

                                               Page 25
________________________________________________________________________________________________



                           responsibilities and contracts with nongovernment providers for
                           background investigations. OPM is responsible for the
                           development of the e-QIP program and provides approximately
                           90% of the investigative services used by all federal agencies.

                           Delegation of Investigative Authority

                           In June 2005, OMB assigned OPM responsibility to develop and
                           implement uniform policies for timely completion of background
                           investigations. In turn, OPM authorized a number of federal
                           entities to administer the background investigation process.
                           Currently, DHS components requesting investigative authority
                           must annually submit requests through DHS PSD. DHS PSD
                           consolidates the requests and submits them to OPM. As of
                           September 23, 2008, CBP, PSD, USCG, and USSS were delegated
                           background investigative authority by OMB.16 ICE, however, has
                           legislated authority to conduct its own background investigations.17
                           CBP and ICE contracted background investigations with several
                           private companies. USCG and PSD use a mix of contractor and
                           OPM investigative services. USSS uses internal resources to
                           conduct background investigations, including administering
                           polygraph examinations.

                           Recommendation #12: Retracted.

                           The e-QIP System

                           The electronic Questionnaire for Investigations Processing system
                           (e-QIP) was designed to electronically capture and transmit
                           personnel security information. The system transmits information
                           that is immediately accessible to eligible users, including the
                           applicant. e-QIP eliminates mailing paper forms, and simplifies
                           and automates record keeping. The system was created as one of
                           OPM’s early steps in automating the personnel security process.
                           Under e-QIP, agencies agreed to submit data and forms for
                           background investigations electronically within 14 days.

                           Although in existence since 2003, e-QIP was not widely used by
                           agencies until 2006, when IRTPA mandated the initial reporting
                           phase for collecting timeliness processing information. In
                           December 2005, DHS was using e-QIP to transmit only 6% of its
                           investigations. One year later, DHS transmitted 64% of its
                           background investigations through e-QIP. DHS is currently one

16
     OMB Letter to OPM, October 29, 2007. 

17
     Public Law 109-90, House Report Number 109-79. 


                                    The DHS Personnel Security Process

                                                 Page 26
________________________________________________________________________________________________



                        component away from being 100% compliant in e-QIP usage. At
                        the time of our fieldwork, that component was negotiating with
                        OPM on system security enhancements.

                        The e-QIP system provides information on the timeliness and
                        accuracy of submissions. DHS components use the information to
                        measure progress and make procedural improvements. DHS
                        security officials said that e-QIP improved the overall application
                        process. However, components identified areas of persistent
                        problems with e-QIP. For example:

                            �	 e-QIP data fields are sensitive to small inconsistencies or
                               errors.

                            �	 Reportedly, the system frequently returns applications to
                               the applicant without notifying the component.

                            �	 e-QIP times out and erases applicant records. Some
                               applicants have had to start their application over.

                            �	 Contractors do not have access to e-QIP, and components
                               using contracted investigators have to print paper copies for
                               investigation.

                            �	 Prior to e-QIP, the Standard Form 86 was 12 pages. With
                               e-QIP, Standard Form 86 is more than 40 pages.

                            �	 Errors detected in e-QIP are time consuming for
                               components to correct. Neither the applicant nor HR can
                               correct erroneous birthdates or the spelling of a last name.

                        OPM electronically rejects or returns inaccurate e-QIP
                        transmissions to the selectee. When an e-QIP submission is
                        rejected, the file images are not viewable and the applicant must
                        reinitiate the process. In some cases components do not have
                        sufficient time to correct an error before e-QIP rejects the case.
                        Some components received 10 to 15 rejections each week.
                        Problems with an e-QIP submission must be resolved before the
                        investigative phase can commence. When components do not
                        understand the reason for the rejection, they call the e-QIP help
                        desk. Component officials told us that they suspect that OPM is
                        inundated with e-QIP support requests, but did not know for sure.
                        Some component officials consider the e-QIP help desk staff
                        unresponsive. According to these officials, e-QIP help desk staff
                        could not explain why a form had been returned. The help desk is
                        manned by contractors and, because of frequent contractor

                                The DHS Personnel Security Process

                                             Page 27
________________________________________________________________________________________________



                          rotation, it is difficult for components to follow up on cases. The
                          time required to resolve discrepancies results in delays in initiation
                          of the personnel security process.

                          We recommend that the Under Secretary for Management:

                          Recommendation #13: Develop a list of department concerns
                          regarding e-QIP to share with OPM for resolution.

                          Investigations

                          IRTPA required that by 2006, 80% of personnel security
                          investigation requests be completed within 90 days, and that by
                          2009, 90% be completed within 40 days. Figure 12 shows the
                          average number of days it took the components to complete
                          investigation requirements in 2007 and 2008. Few DHS
                          components meet the IRTPA requirements. We observed that
                          DHS’ own contract investigations generally take 90 days or less,
                          but those done for DHS by OPM usually take longer. Figure 12
                          compares investigation processing times between contractors and
                          OPM by component.

                          Figure 12. Investigation Processing Times in Days
                                       Contractors                              OPM
                           Component         2007         2008     Component         2007    2008
                               CBP             97          59           PSD          101       67
                                ICE            52          39           FEMA         121       94
                                                                                         Not
                               USSS          30–45        30–45         FLETC                   18
                                                                                      Available
                                                                        TSA          130       96
                                                                        USCIS        110       82
                                                                        USCG         122       80
                          Source: OIG, derived from multiple sources.

                          There are mixed opinions among component officials regarding the
                          adequacy and quality of OPM investigations. Some officials said
                          that OPM investigators are inexperienced and may not know the
                          proper questions to ask. Other officials, however, expressed
                          complete satisfaction with OPM investigations. A determination
                          regarding the sufficiency of OPM investigations was not within the
                          scope of our review.


18
  FLETC data are not available because the FLETC Personnel Security Office was not staffed until early
2008.

                                   The DHS Personnel Security Process

                                                Page 28
________________________________________________________________________________________________



                        Components that use contracted background investigation services
                        have stated that the investigations are complete and very thorough.
                        There were few instances when a product was returned for further
                        work; however, products were usually returned within 1 week.
                        Components pay for all investigative services, OPM or contracted.

                        A number of components expressed interest in negotiating with
                        OPM on the type of information covered in a background
                        investigation. Allowing a single entity like DHS PSD to liaise
                        with OPM on personnel security issues would ensure a balanced
                        approach to issue resolution. Placing DHS PSD in a direct liaison
                        role with OPM would facilitate the delegation of investigative
                        authority and faster resolution of e-QIP issues.

                        We recommend that the Under Secretary for Management:

                        Recommendation #14: Develop a list of department concerns
                        regarding background investigations to share with OPM for
                        resolution.

                        Recommendation #15: Designate DHS Office of Security,
                        Personnel Security Division, as the sole representatives to OPM for
                        the components.

                        Connection to DHS Chief Human Capital Office

                        DHS CHCO is responsible for all DHS’ human resources issues,
                        which include developing performance measures and enterprise
                        human resource systems, training, and recruiting. Component
                        officials described the relationship between the CHCO and DHS
                        components as consultative. Component HR offices noted that the
                        CHCO is understaffed and at a disadvantage in providing needed
                        service. To date, the CHCO Recruitment and Staffing office has
                        not been involved with position designation and classification at
                        the component level. The CHCO does not have the federal staff
                        necessary to coordinate component actions on position designation,
                        a PD library, or workforce projections. Until CHCO can to
                        provide appropriate position designations, a PD library, and
                        workforce projections across the department, personnel security
                        offices cannot function effectively.

                        Verification of Position Designations

                        The personnel security process starts when the program manager
                        prepares the PD. In addition to containing a description of job
                        duties, the PD states the sensitivity level of the position. The type

                                The DHS Personnel Security Process

                                             Page 29
________________________________________________________________________________________________



                        of background investigation that will be required must always
                        correspond to the sensitivity level in the PD. Background
                        investigations for sensitive positions those that require security
                        clearances are usually both costly and time consuming. It is
                        important that the sensitivity levels correctly reflect the duties of
                        the job and be consistent with national security clearance access
                        criteria.

                        Inaccurate sensitivity levels compromise the personnel security
                        program, increase costs, and lengthen investigation times. On the
                        one hand, if a position’s sensitivity is understated, the selectee will
                        be given a less complete investigation. This will result in issuance
                        of an insufficient security clearance, prohibiting the selectee from
                        performing the duties of the position. On the other hand, if a
                        position’s sensitivity is overstated, the selectee will undergo a
                        more expensive and protracted investigation than necessary and
                        will receive a security clearance beyond what is required for the
                        position.

                        HR classifiers determine final position risk and sensitivity
                        designation. Of the components included in our review, only three
                        had classifiers. USSS has a classification branch with five
                        classifiers. USCG has nine classifiers assigned to its HR offices.
                        TSA had multiple classifiers to review position sensitivity. The
                        CHCO has one classifier on staff. USSS, USCG, and TSA use
                        their classifiers to review and validate position sensitivity.
                        Components with classifiers on staff deem the role critical to
                        ensure the proper designation of positions. DHS CHCO officials
                        expressed concern about the absence of department grading
                        standards and instructions for classification of PDs. We were told
                        by the CHCO that a class on how to make position designations
                        was offered to classifiers but only one individual attended.

                        HR offices without classifiers rely on program managers to certify
                        the accuracy of the position classification. One HR manager said
                        that the classification occupation is perceived as less important
                        than other HR areas. According to personnel security and HR
                        officials, qualified classifiers are difficult to find and were
                        described as a “dying breed.” Components without HR classifiers
                        are uncertain who has responsibility for PDs. Personnel security
                        and HR offices observed that program managers frequently do not
                        understand the value of position designation. Many DHS
                        component officials rely on their knowledge of position
                        designation as it applied in legacy organizations. For example, as
                        of August 2008, one component was using criteria developed by
                        the National Aeronautics and Space Administration to establish

                                The DHS Personnel Security Process

                                             Page 30
________________________________________________________________________________________________



                          position risk and sensitivity designations. Another component was
                          using a Department of Treasury form to classify positions. Others
                          were using the Department of Treasury manual to make position
                          risk and sensitivity designations.

                          Personnel security officials said that some program managers want
                          to adjust position clearance levels. To hire an employee, some
                          program managers request a low designation, hire the individual,
                          and then resubmit the position for an upgraded security clearance
                          level. Other program managers insist on a higher clearance level
                          to attract or retain an already cleared individual. Personnel
                          security officials said that discussions take place with HR
                          regarding the inappropriate designation levels. The HR office then
                          discusses the matter with the program manager for resolution.

                          Requests by program managers to upgrade clearance levels without
                          full justification compelled TSA to develop a position sensitivity
                          policy. The policy requires that TSA HR make the final decision.
                          The TSA guidance supplements a DHS personnel security
                          directive, which authorizes the program manager to designate
                          position sensitivity. The DHS management directive states that
                          sensitivity designations are subject to final approval by the
                          organizational element’s respective Personnel Security Office.19
                          However, the directive does not clearly state the role of the human
                          resource classifier.

                          DHS CHCO has placed the OPM requirements for position
                          designation online. Some components, like USCIS and TSA, have
                          developed and augmented their websites with information on the
                          position designation and sensitivity process. Component officials
                          would like clarification on making the final position designation.

                          We recommend that the Under Secretary for Management:

                          Recommendation #16: Direct component human resource offices
                          to use a qualified classifier as the final decision maker in position
                          designations.

                          DHS Position Description Library

                          A PD is the source document that lists the sensitivity designation
                          and indicates to the personnel security officer the level of the
                          security clearance to process. Many HR officials stated that DHS
                          CHCO has not emphasized consistent application of federal

19
     DHS Management Directive 11050.2.

                                  The DHS Personnel Security Process

                                               Page 31
________________________________________________________________________________________________



                        regulations or developed department policies on writing PDs for
                        the components.

                        The development and use of PDs vary among components. Some
                        HR offices were using legacy PDs to fill vacancies. In other HR
                        offices, program managers would identify a particular individual
                        and then ask HR to write a PD to fit the position. Of all the
                        components, only TSA classifiers reviewed positions whenever
                        there were significant changes in duties or when employees were
                        promoted. Although DHS CHCO has not required components to
                        review old PDs, a departmental review of PDs would more
                        accurately reflect security requirements of DHS’ positions. The
                        CHCO should consider a 100% validation of PDs to ensure that
                        sensitivity levels are appropriately designated. The HR
                        community could conduct this task in cooperation with program
                        managers and in coordination with personnel security offices.

                        Unlike many federal departments, DHS does not have a PD library.
                        A PD library is a collection of description templates and sample
                        standardized PDs that program managers can download, use, and
                        edit. A DHS PD library would simplify the classification process
                        as it would contain standard description of duties, grading, and
                        sensitivity designations for positions or series. A DHS PD library
                        would also enable program managers to review existing PDs.

                        We recommend that the Under Secretary for Management:

                        Recommendation #17: Establish and maintain a department
                        position description library of properly designated positions.

                        Workforce Projections

                        The CHCO and component personnel security offices need better
                        information about future DHS hiring plans to staff their own
                        offices properly. Personnel security offices cannot determine the
                        appropriate size of their own staff without knowing the demand for
                        services in the coming year. Inadequate staffing at personnel
                        security offices often results in staffing shortages throughout the
                        department. Because DHS CHCO does not collect workforce
                        projections, some components conducted independent studies to
                        determine security office staffing levels.

                        TSA conducted an internal staffing assessment to identify the best
                        possible realignment of FTEs and contractors. From July to
                        October 2008, TSA’s backlog of cases to be adjudicated had
                        grown from 2,000 to 5,000 cases. The average number of days to

                                The DHS Personnel Security Process

                                             Page 32
________________________________________________________________________________________________



                        adjudicate a case increased from 95 to 147 days. TSA
                        implemented a night surge team and requested the transition of
                        contractor adjudicator slots to full-time federal positions. In 2008,
                        based on the results of the staffing assessment, TSA leadership
                        agreed to provide 11 adjudicative and administrative FTEs to
                        support the workload.

                        ICE personnel security also conducted a review of the resources
                        needed to meet agency hiring requirements. The personnel
                        security officer required agency offices to submit their projected
                        hiring needs. These projections were reconciled against the
                        agency’s attrition rates, and ICE personnel security officials met
                        with agency officials to discuss the cost of processing new hires.
                        Agency leaders were willing to pay for contracted services if new
                        hires could be on board within 60 days. Therefore, ICE personnel
                        security negotiated four contracts for background investigations.
                        Under these contracts, ICE background investigations are
                        completed in approximately 37 days. The quick completion of the
                        contractor-led investigations has allowed ICE adjudicators to issue
                        final determinations more quickly. As of October 2008, ICE can
                        have an individual investigated, adjudicated, and working in as few
                        as 45 days if a case has no significant suitability issues. ICE was
                        the only component that was confident that it could meet IRTPA
                        requirements.

                        FEMA also completed an internal staffing review to determine the
                        number of additional adjudicators it needed to comply with the 30­
                        day IRTPA requirement. The study validated a need for three
                        additional full-time adjudicators. Although initial funding was not
                        available, as of October 2008, FEMA was in the process of
                        developing a contract to provide administrative support for
                        adjudicators so their primary workload could be adjudications.

                        Only federal adjudicators can make final determinations.
                        Adjudicator recruiting should be a priority as personnel security
                        adjudication functions are understaffed. Adding contract staff
                        support will expedite some support functions, but only federal
                        employees have the right to adjudicate suitability. Any backlogs
                        caused by caseload exceeding adjudicative capacity can only be
                        relieved by hiring more federal adjudicators. Figure 13 shows the
                        average adjudication processing time among DHS components.




                                The DHS Personnel Security Process

                                             Page 33
________________________________________________________________________________________________



                       Figure 13. Average Adjudication Processing Time in Days
                             Component                 2007                    2008
                                PSD                     37                      37
                                CBP                     62                      79
                               FEMA                              Not Available
                               FLETC                    55                      37
                                 ICE                    45                      35
                                 TSA                    95                      147
                               USCG                     90                      17
                               USCIS                    50                      59
                                USSS                           Continual Basis
                       Source: OIG, derived from multiple sources

                        Some components’ adjudication processing times have increased
                        in the past year due to increased workloads. In June 2008, FEMA
                        had five adjudicators and a backlog of 1,430 cases. By October
                        2008, FEMA had only three adjudicators, and the number of
                        FEMA cases awaiting adjudication grew to more than 1,900.
                        Since May 2008, PSD has had the capacity to adjudicate 575 cases
                        a month but received an average of 725 cases each month. In
                        October 2008, TSA completed 2,000 cases in 1 month but, because
                        of incoming cases, the backlog remained at 5,000.

                        Both IRTPA requirements and expectations from program
                        managers have forced personnel security officers to become better
                        organized. However, not all personnel security offices have access
                        to the workforce projections necessary to justify additional
                        personnel security staff. Without accurate projections on FTEs,
                        personnel security offices have a difficult time predicting future
                        workloads or justifying the need for additional staff.

                        DHS CHCO does not collect workforce projection numbers, which
                        affects components’ ability to determine appropriate staffing levels
                        for their own HR and Personnel Security units. With shorter
                        IRTPA timeline standards, personnel security offices must have
                        fully staffed offices. The department’s personnel security program
                        cannot be fully successful without CHCO involvement.

                        We recommend that the Under Secretary for Management:

                        Recommendation #18: Direct DHS component HR offices to
                        submit workforce projections to the Chief Human Capital Office
                        annually.




                                The DHS Personnel Security Process

                                             Page 34
________________________________________________________________________________________________



                        Support of DHS Components

                        At times, components need help with adjudications or guidance on
                        how to meet federal requirements. DHS PSD informally provides
                        adjudicator support to components and consults with components
                        on program changes, and components keep DHS PSD apprised of
                        developing personnel security situations. Further, DHS PSD can
                        provide additional services to the components. Establishing an
                        intake function would help accelerate the administrative processing
                        of cases and would better enable DHS PSD to assist components
                        with unexpected hiring surges and reinvestigation requirements.

                        Surge Capacity

                        DHS has experienced some significant yet unforeseen workload
                        increases that may result from new programs or mandated
                        requirements. Program surges significantly affect component
                        personnel security offices. To assist components, DHS PSD
                        provides vital surge capacity.

                        The President’s FY 2008 budget proposal requested $647.8 million
                        to hire 3,000 CBP Border Patrol agents. Subsequently, CBP was
                        inundated with applicants seeking Border Patrol agent positions.
                        To help with the influx, CBP enlisted DHS PSD and USCG’s help
                        with adjudicating the investigations. DHS PSD and USCG
                        adjudicators assisted with the CBP workload through voluntary
                        overtime.

                        FEMA has also used adjudicator resources from DHS PSD. When
                        natural disasters occur, FEMA is responsible for getting a number
                        of temporary employees cleared and to the disaster site in a short
                        time. FEMA has sought and DHS PSD has provided adjudicative
                        assistance in these situations.

                        In 2008, the National Protection and Programs Directorate was
                        directed to hire an additional 200 employees by the end of the
                        fiscal year. As of September 2008, the directorate was attempting
                        to coordinate hiring efforts with the CHCO to meet the mandate.
                        At the time we concluded our fieldwork in October 2008, DHS
                        PSD had not yet received any of the 200 applications.

                        Currently, components must develop an agreement with PSD to
                        obtain surge assistance. It is often time-consuming to negotiate the
                        agreements. If PSD had a formal surge adjudicator capacity, it
                        could offer adjudication more quickly through the intake office as
                        a support feature.

                                The DHS Personnel Security Process

                                             Page 35
________________________________________________________________________________________________




                        We recommend that the Under Secretary for Management:

                        Recommendation #19: Instruct DHS Office of Security,
                        Personnel Security Division to formalize its provision to
                        components of adjudicator surge capacity.

                        Reinvestigations

                        Periodic reinvestigations to assess an employee’s continued
                        eligibility for access to classified information are critical to the
                        personnel security process. The type of security clearance held by
                        the employee determines when a reinvestigation is required.

                        A periodic reinvestigation requires that the employee complete the
                        same forms collected for the initial investigation. Either HR or the
                        personnel security office notifies the employee that a
                        reinvestigation of personnel security is required. Typically, the
                        notification is accompanied by a request that the employee update
                        Standard Form 86 via e-QIP. Employees who delay submitting the
                        requested forms delay their readjudication, jeopardizing their
                        continued access to classified information.

                        With full implementation of ISMS, DHS PSD could oversee the
                        department’s reinvestigation process. With more than 75,000
                        employees maintaining security clearances and the need to
                        reinvestigate every 5 to 10 years, many DHS employees need
                        readjudication. The reinvestigation requirement increases the
                        workload of the components. Under a centralized intake function,
                        DHS PSD could initiate and consolidate component surge requests
                        and reinvestigations.

                        We recommend that the Under Secretary for Management:

                        Recommendation #20: Require DHS Office of Security,
                        Personnel Security Division to use ISMS to initiate and track
                        reinvestigation needs for components.




                                The DHS Personnel Security Process

                                             Page 36
Management Comments and OIG Analysis
     The recommendations in this report are made to the Under Secretary for
     Management. Compliance will require action by the Office of the Chief Security
     Officer on recommendations 1 11, 13, 14, 15, 19, and 20, and action by the Chief
     Human Capital Officer on recommendations 16, 17, and 18.

     Department management provided a complete and detailed response to our draft
     report, which we have attached as Appendix B. Though not required, the
     response includes not only the reply from the OCSO but also comments submitted
     to that office by USSS, USCIS, CBP, and ICE. Technical comments and
     corrections were received from CBP, FLETC, ICE, PSD, TSA, USCG, and
     USCIS. Where appropriate, we made changes to ensure the accuracy of
     information. As a result of these exchanges of updated information, we removed
     the recommendation that appeared in our draft report as recommendation number
     12. To preserve the sense of the management comments, which were written to
     respond to the draft, we have not renumbered recommendations 13 20.

     We recommend that DHS OCSO exercise the full range of authorities it has been
     given under MD 121-01 and MD 11050.2. Fulfilling its role will cause PSD, as
     part of the OCSO, to serve as both a departmental personnel security processing
     center and a representative for all DHS personnel security issues. PSD should
     have full awareness of how each component processes personnel security requests
     and serve as a resource to the OCSO on personnel security operations across the
     department. This would include standardizing, consolidating, and integrating
     DHS personnel security functions. We understand that component-level
     personnel security offices are reluctant to cede to the department many tasks and
     responsibilities they now perform for themselves, some of which are not
     substantially component-specific. Nevertheless, components’ willingness to
     continue to perform individually tasks that could effectively be centralized is not,
     in our opinion, a persuasive reason to accept continuing fragmentation of the
     department’s personnel security customer service processes.

     We also identified a number of HR functions the CHCO has not completed that
     significantly hinder the personnel security process. As these functions are
     essential to ensuring national security, we encourage the CHCO to undertake
     remedial action.

     Recommendation #1: Establish a department-wide requirement for selectees to
     complete e-QIP within a specified number of days, and develop strategies to
     manage selectees who do not meet the response requirement.

     OCSO Response: OCSO concurred with recommendation #1. In its response,
     OCSO management said that the CHCO allows each applicant 10 days to
     complete e-QIP after making a tentative job offer. OCSO said that if the


                            The DHS Personnel Security Process

                                         Page 37
________________________________________________________________________________________________



        applicant fails to complete e-QIP within the required timeframe, the CHCO has
        the authority to rescind the offer of employment.

        OIG Analysis: This recommendation is resolved, open. Managers in
        components with more qualified applicants than vacancies can feel frustrated
        when an individual selected for a vacancy fails to complete the e-QIP process
        within the allotted time. Conversely, managers in components with more
        vacancies than qualified applicants are willing to tolerate such delays. Therefore,
        we are not recommending that the department arbitrarily impose a 10-day e-QIP
        completion deadline on selectees. We do recommend that the department develop
        an acceptable baseline, communicate it to selectees, and develop a strategy for
        dealing with selectee-caused delays. We understand that components need to be
        able to manage exemptions related to hard-to-fill positions. However, a baseline
        is important to maintaining efficiency in the personnel security process. The
        recommendation will remain open pending the receipt of a department-wide
        policy establishing a baseline for e-QIP completion.

        Recommendation #2: Delegate all customer service responsibilities to the DHS
        Personnel Security Division.

        OCSO Response: OCSO concurred in part with recommendation #2. In its
        response, OCSO management said each component has unique characteristics and
        operating requirements that would make a central customer service office
        impractical. Furthermore, OCSO management said a central customer service
        office to address e-QIP questions, such as password and golden questions resets,
        could be a viable alternative following a resource and process analysis.

        OIG Analysis: This recommendation is resolved, open. Our report provides a
        general resource and process analysis that could be used to initiate a department-
        wide personnel security customer service office administered by PSD. We did
        not include specific details on implementation of this recommendation, but are
        concerned that personnel security offices do not fully understand our intent.

        We considered several of the component customer service functions as best
        practices from which the entire department would greatly benefit if uniformly
        applied. It is possible to use documents already developed by components to
        implement a customer service function at the department level. It is important
        that DHS provide consistent customer service on personnel security issues not
        only to applicants but also to program managers. The recommendation will
        remain open pending receipt of documentation of implementation plans to
        develop a department-wide personnel security customer service function for all e-
        QIP responsibilities.




                                The DHS Personnel Security Process

                                             Page 38
________________________________________________________________________________________________



        Recommendation #3: Create a centralized department-level personnel security
        intake processing and customer service center within DHS, administered by the
        DHS Personnel Security Division.

        OCSO Response: OCSO concurred in part with recommendation #3. In its
        response, OCSO management said implementation of this recommendation would
        require a significant reallocation of resources and space, and a comprehensive
        study should be conducted to determine feasibility. In addition, input would be
        needed from the chief information officer and information technology support
        offices. OCSO noted in its comments that some components did not believe that
        a centralized intake processing and customer service center would yield the
        efficiencies cited in the report.

        OIG Analysis: This recommendation is unresolved, open. A few components
        have concerns that implementation of our recommendation could result in a loss
        of control and initial processing delays. These components have developed their
        own capable personnel security programs incorporating prehire customer service
        tasks. Elevating their skills and best practices to a department-wide level would
        benefit all of DHS. Many smaller components need the resources to address their
        customer service needs thoroughly. When the tools, documents, and procedures
        already optimized by some large components are exported to a new, vitalized
        customer service function at the department level, the smaller components can be
        among the first to benefit. After the office is established, larger components can
        incorporate their customer service tasks. The potential value of providing
        consistent customer service on personnel security issues not only to applicants,
        but also to DHS program managers, should not be understated. We do not
        envision removing components’ ability to apply mission-specific requirements to
        their process. We encourage OCSO to consult component processes to develop a
        department-level personnel security intake processing center. The
        recommendation will remain open pending receipt of the results of a
        comprehensive study to determine the feasibility of implementing this
        recommendation.

        Recommendation #4: Consolidate component security information into ISMS.

        OCSO Response: OCSO concurred, stating that it is currently merging FEMA
        and CBP security information into ISMS. FLETC, ICE, and USCG are scheduled
        for future rollout.

        OIG Analysis: This recommendation is resolved, open. We will close the
        recommendation upon receipt of documentation on the integration of TSA and
        USSS personnel security information to ISMS and proposed timeframe for
        completion.




                                The DHS Personnel Security Process

                                             Page 39
________________________________________________________________________________________________



        Recommendation #5: Designate the centralized intake processing center
        responsibilities for obtaining and coordinating interagency and federal department
        requests for previous investigation files.

        OCSO Response: OCSO concurred with recommendation #5. In its response,
        OCSO management said the recommendation is being mandated by the
        Repository Working Group, a subgroup of the Joint Reform Team, which consists
        of personnel security experts from the Director of National Intelligence (DNI),
        OPM, OMB, and Department of Defense. The mandate requires all records
        created by December 15, 2009to be stored in an approved electronic format. The
        OCSO said that it has taken the appropriate steps to implement the mandate.

        OIG Analysis: This recommendation is resolved, open. The Joint Reform Team
        is working to address issues regarding existing investigative files kept by other
        agencies. We encourage OCSO to take the lead on this important department-
        wide issue, and incorporate the responsibility for transferring previous
        investigation files into the centralized intake processing center. The
        recommendation will remain open pending the receipt of documentation of a DHS
        policy to obtain and coordinate interagency and federal department requests for
        previous investigations.

        Recommendation #6: Develop departmental guidance to apply reciprocity as
        outlined in Executive Order 13467.

        OCSO Response: OCSO concurred with recommendation #6. In its response,
        OCSO noted the Joint Reform Team is developing guidance on application of
        reciprocity.

        OIG Analysis: This recommendation is resolved, open. The Joint Reform Team
        is working to address this recommendation. We encourage OCSO to develop a
        department-wide policy on reciprocity. DHS PSD has already developed a policy
        that could be applied department-wide. The recommendation will remain open
        pending receipt of documentation of a DHS policy for application of reciprocity.

        Recommendation #7: Designate the DHS Office of Security, Personnel Security
        Division as the DHS representative to the Suitability or Security Executive Agent
        to facilitate approval of additional DHS component suitability requirements.

        OCSO Response: OCSO concurred in part with recommendation #7. In its
        response, OCSO management said the DHS Chief Security Officer represents all
        DHS components on personnel security-related issues.

        OIG Analysis: This recommendation is resolved, open. In practice, OMB and
        OPM consider OCSO as the DHS personnel security representative. However,
        we were not provided any documentation recognizing OCSO as the DHS
        Suitability Executive Agent or Security Executive Agent. Further consideration

                                The DHS Personnel Security Process

                                             Page 40
________________________________________________________________________________________________



        could also be given to designating PSD as the OCSO component liaison on all
        personnel security-related issues. The recommendation will remain open pending
        the receipt of documentation indicating that OCSO is the DHS representative
        authority for personnel security-related issues.

        Recommendation #8: Develop a training program for program managers on the
        personnel security process.

        OCSO Response: OCSO concurred with recommendation #8. In its response,
        OCSO management said the OMB Performance Accountability Council (PAC)
        has created a subcommittee to address the need to establish standardized training.
        The OMB PAC will mandate training and certification for all investigators and
        adjudicators.

        OIG Analysis: This recommendation is resolved, open. The OCSO response
        related to the development of training programs for investigators and adjudicators.
        In discussion with OCSO managers, we clarified that our recommendation was to
        develop a training program for program managers the supervisors whose staff
        vacancies were being filled by the new hires. Some personnel security officials
        told us that responding to repeated inquiries from managers eager to fill their
        vacancies was as burdensome as repeat inquiries from selectees. The
        recommendation remains open pending documentation indicating development of
        an informational module for program managers.

        Recommendation #9: Establish a maximum bad debt amount for the
        department, and permit components to use less but not more than the maximum
        amount.

        OCSO Response: OCSO concurred with recommendation #9. In its response,
        OCSO management said OCSO is reviewing debt levels in order to develop a
        proposed ceiling that is acceptable to the department.

        OIG Analysis: This recommendation is resolved, open. In discussion, OCSO
        noted that a memorandum was recently signed implementing this
        recommendation. We agree that the action OCSO plans to take will satisfy the
        intent of this recommendation. The recommendation will remain open pending
        the receipt of the signed memorandum documenting the department-wide bad
        debt maximum.

        Recommendation #10: Set minimum personnel security processing standards
        for temporary employees in DHS, to include student interns and summer hire
        program employees.

        OCSO Response: OCSO did not concur with recommendation #10. In its
        response, OCSO management said every agency vets its temporary employees
        and interns differently. OCSO noted that Title 5, CFR, Section 732 requires an

                                The DHS Personnel Security Process

                                             Page 41
________________________________________________________________________________________________



        investigation only after 180 days of employment. Further, OCSO questions the
        value added to the personnel security process if this recommendation is
        implemented.

        OIG Analysis: This recommendation is unresolved, open. We understand that
        only employees who serve for more than 180 days are required to be vetted in the
        same manner as full-time federal civilian employees. However, under the
        management directives cited in this report, it is the responsibility of OCSO to
        issue, implement, and ensure compliance with written personnel security policies
        throughout the department. Our fieldwork identified component personnel
        security offices that were uncertain what the department required as a minimum
        for temporary employees. We encourage OCSO to consider using Homeland
        Security Presidential Directive 12 requirements to establish minimum processing
        requirements for temporary DHS employees. The recommendation will remain
        open pending receipt of documentation indicating that a department-wide
        minimum for temporary employees has been developed.

        Recommendation #11: Develop a formal DHS adjudicator training and
        certification program.

        OCSO Response: OCSO concurred with recommendation #11. In its response,
        OCSO said it provides adjudicator training at an annual security conference and
        quarterly at DHS adjudicator roundtable meetings. OCSO envisions developing
        additional adjudicator training to enhance OPM government-wide standards for
        adjudicator and investigator training and certification.

        OIG Analysis: This recommendation is resolved, open. Many components have
        developed adjudicator training programs that could be modified and certified at
        the department level. Some components indicated a willingness to assist with
        development, host a session, or serve as a pilot for such a program. The
        recommendation remains open pending receipt of documentation indicating that a
        DHS adjudicator training and certification program is being developed.

        Recommendation #12: Retracted.

        This recommendation was removed from the final report. DHS officials stated
        that OPM annually delegates investigative authority to DHS, and DHS is satisfied
        with OPM’s decisions with respect to delegated investigative authority.

        Recommendation #13: Develop a list of department concerns regarding e-QIP
        to share with OPM for resolution.

        OCSO Response: OCSO did not concur with recommendation #13. In its
        response, OCSO management said that it had no information suggesting e-QIP is
        not operating smoothly.


                                The DHS Personnel Security Process

                                             Page 42
________________________________________________________________________________________________



        OIG Analysis: This recommendation is unresolved, open. As we reported, some
        selectees and DHS employees have experienced difficulties using the e-QIP
        system. OCSO should validate its assertion that e-QIP is operating smoothly by
        surveying DHS users to identify whether e-QIP issues exist within the
        department. Any issues noted should be conveyed to OPM. The recommendation
        will remain open pending the receipt of documentation on action taken by OCSO
        to bring department-wide e-QIP issues to OPM’s attention.

       Recommendation #14: Develop a list of department concerns regarding
       background investigations to share with OPM for resolution.

       OCSO Response: OCSO concurred with recommendation #14. In its response,
       OCSO management said the office, as part of a working group, is addressing the
       concerns of this recommendation. As a result, a survey and statistical analysis has
       been completed.

       OIG Analysis: The recommendation is resolved, open. We recognize that
       OCSO represents DHS regarding personnel security-related issues. However, our
       fieldwork identified a number of issues at the component level regarding
       background investigations. As noted in recommendation #3, the department’s
       fragmented approach to personnel security prevents OCSO from always being
       aware of department-wide issues. The recommendation will remain open pending
       the receipt of documentation of the survey and statistical analysis conducted, as
       well as documentation on action taken by OCSO to resolve department-wide
       background investigation issues.

       Recommendation #15: Designate DHS Office of Security, Personnel Security
       Division, as the sole representative to OPM for the components.

        OCSO Response: OCSO did not concur with recommendation #15. In its
        response, OCSO management said OCSO is a member of OMB PAC and of the
        DNI Special Security Center, and represents all DHS components on personnel
        security-related issues. OCSO and the components reported, however, that
        because each component has unique operational requirements, each must deal
        directly with OPM on specific case issues. The components want to retain their
        ability to deal directly with OPM on matters they consider specific to their
        organizations.

        OIG Analysis: This recommendation is unresolved, open. OCSO indicates that
        it uses various intergovernmental memberships to represent components on
        personnel security-related issues. Our fieldwork demonstrated that components
        contact OPM on the same issues. We recognize that components and OPM can
        quickly resolve some small, day-to-day issues , but the intent of this
        recommendation was to ensure a balanced approach to issue resolution. OCSO
        PSD has experienced fewer issues requiring OPM resolution than components.
        Our fieldwork indicated that the authority of OCSO has enabled PSD to resolve

                                The DHS Personnel Security Process

                                             Page 43
________________________________________________________________________________________________



        issues more quickly than components. Designating PSD as the sole representative
        to OPM for the components could lend additional legitimacy to issues
        experienced by components and result in quicker resolution. The
        recommendation will remain open pending the receipt of a memorandum
        delegating authority to OCSO PSD as the sole representative for components on
        personnel security-related OPM issues.

        Recommendation #16: Direct component human resource offices to use a
        qualified classifier as the final decision maker in position designations.

        OCSO Response: OCSO reports that the CHCO concurred in part with
        recommendation #16. Its response said that the CHCO would need to establish
        FTE classifier positions in order to fulfill this recommendation and ensure
        continuity of operations.

        OIG Analysis: This recommendation is unresolved, open. The OCSO response
        addressed only the matter of adding qualified position classification specialists at
        the department level, not in the components. Our fieldwork has identified a
        significant need for qualified classifiers throughout the department to ensure the
        efficiency of the personnel security process. Without classifiers, positions can be
        filled using incorrect risk or sensitivity designations. Until this need is met,
        OCSO should assist in expediting the reallocation of department resources to
        include detailing experienced classifiers to components without classifiers. The
        recommendation will remain open pending our receipt of documentation that
        identifies the number of classifiers required department-wide, the proposed
        timeline for hiring new classifiers, and acknowledgment that classifiers have been
        placed in the components.

        Recommendation #17: Establish and maintain a department position description
        library of properly designated positions.

        OCSO Response: CHCO concurred in part with recommendation #17. In its
        response, OCSO management said that at least two teams need to be established
        to fulfill this recommendation. OCSO proposed an initial team of two classifiers
        to handle classification of position descriptions, ensuring that OPM guidance is
        followed. An undetermined number of classifiers on another team would identify
        the number of PDs to be reviewed and the timeframe of the review. Contractors
        could be used for administrative support between the two teams and to enter
        documentation into the newly developed CHCO PD library.

        OIG Analysis: This recommendation is unresolved, open. As noted in our
        report, we determined that some components use classifiers to review PDs. The
        CHCO should be able to request validated PDs from those components. Further,
        with implementation of recommendation #16, more components should be able to
        provide the CHCO with PDs that have been verified by detailed classifiers. These
        PDs could serve as the beginning of the DHS PD library and should be updated as

                                The DHS Personnel Security Process

                                             Page 44
________________________________________________________________________________________________



        components make changes. This approach would reduce workload and use
        existing departmental resources. More important, it would facilitate quick startup
        of the PD library. We encourage the CHCO to work with component HR offices
        and to compile already validated PDs produced by qualified position classifiers.
        The recommendation will remain open pending receipt of PD templates with clear
        notation that the classification has been validated.

        Recommendation #18: Direct DHS component human resources offices to
        submit workforce projections to the Chief Human Capital Office annually.

        OCSO Response: OCSO concurred with recommendation #18. In its response,
        OCSO management said the CHCO needs to create a manning roster for each
        Directorate, by position. In addition, only vacant positions can be filled. It is
        expected that this will reduce unconstrained hiring.

        OIG Analysis: This recommendation is unresolved, open. While we encourage
        the CHCO to develop and maintain an electronic manning roster for the
        directorates, the CHCO’s proposed action would address only a portion of our
        concern. Workforce projections need to be obtained for all components, not just
        the headquarters directorates, and then shared with all personnel security offices.
        This will aid the department in acquiring sufficient qualified classifiers,
        adjudicators, and other staff to deal with future hiring activity.

        Implementation of this recommendation is essential to ensure appropriate
        planning and use of resources throughout the department. As the department’s
        human capital office, the CHCO has the authority to plan and execute department-
        wide policies. We understand that the CHCO has experienced staffing
        limitations, but our fieldwork indicated that inadequate execution of HR policies
        can have a detrimental effect on other department programs. We saw this clearly
        in the personnel security programs. The recommendation will remain open
        pending documentation that describes the CHCO’s efforts to collect workforce
        projections from the department.

        Recommendation #19: Instruct DHS Office of Security, Personnel Security
        Division to formalize its provision to components of adjudicator surge capacity.

        OCSO Response: OCSO concurred with recommendation #19. In its response,
        OCSO management said that provision for a surge adjudication team was
        included in the FY 2010 budget but the funding had been dropped. DHS was in
        the process of appealing the decision.

        OIG Analysis: This recommendation is resolved, open. In discussion, OCSO
        said that the OMB decision to cut funding for a surge adjudication team was being
        appealed. The OCSO response did not indicate what the surge capacity would be,
        or how OCSO will overcome budget and operational requirements to implement
        this recommendation. We endorse the critical need for a surge adjudication team

                                The DHS Personnel Security Process

                                             Page 45
________________________________________________________________________________________________



        to vet cleared selectees in a timely manner when department hiring initiatives
        overwhelm existing personnel security capacity. The recommendation will
        remain open pending receipt of documentation indicating the final appeal
        decision.

        Recommendation #20: Require DHS Office of Security, Personnel Security
        Division to use ISMS to initiate and track reinvestigation needs for components.

        OCSO Response: OCSO concurred with recommendation #20. In its response,
        OCSO management said implementation of this recommendation is under way.
        The first component is scheduled to begin using ISMS to track reinvestigations in
        April 2009.

        OIG Analysis: This recommendation is resolved, open. The action OCSO plans
        to take will satisfy the intent of this recommendation. OCSO should provide a
        timeline for inclusion of all components’ security information in ISMS, and a
        consolidated list of projected reinvestigations by component for FY 2010.




                                The DHS Personnel Security Process

                                             Page 46
Appendix A
Purpose, Scope, and Methodology

                   The purpose of our review was to examine the department’s
                   internal processes and standards for background investigations.
                   This review did not evaluate the DHS personnel security clearance
                   screening process for contractors, appointees, or nonfederal DHS
                   employees. We measured DHS’ processing requirements, security
                   clearance investigative authority, agency suitability requirements,
                   clearance update requirements, and the application of reciprocity.
                   Our report is based on interviews with key personnel security
                   officials, human resources employees, and senior DHS officials.

                   We conducted our fieldwork from June to August 2008. During
                   this period, we received briefings from officials at the Office of
                   Personnel Management and DHS Chief Human Capital Office, and
                   conducted numerous interviews, including interviews with senior
                   DHS Office of Security officials. We met with officials from PSD
                   (which services all but eight of the DHS components) and spoke to
                   officials from the following eight legacy personnel security offices
                   within DHS: (1) United States Customs and Border Protection,
                   (2) United States Citizenship and Immigration Services, (3) the
                   Federal Emergency Management Agency, (4) the Federal Law
                   Enforcement Training Center, (5) United States Immigration and
                   Customs Enforcement, (6) the Transportation Security
                   Administration, (7) the United States Coast Guard, and (8) the
                   United States Secret Service. These offices provided insights into
                   the effectiveness of the DHS personnel security process. We also
                   interviewed department human resources officials and field office
                   staff to learn about classification and hiring processes, and
                   completed a Suitability Adjudications training course offered by
                   the U.S. Department of Agriculture Graduate School.

                   We studied related laws, regulations, Executive orders, and DHS
                   management directives. We reviewed DHS guidelines and
                   procedures, and analyzed DHS personnel security documents. In
                   addition, we examined Government Accountability Office reports,
                   relevant speeches, congressional testimony, and news articles.

                   This review was conducted under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality
                   Standards for Inspections issued by the President’s Council on
                   Integrity and Efficiency.




                          The DHS Personnel Security Process

                                       Page 47
Appendix B
Management Comments to the Draft Report




                        The DHS Personnel Security Process 


                                     Page 48 

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 49
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 50

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 51
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 52

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 53

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 54

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 55
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 56

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 57

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 58

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 59

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 60
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 61

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 62

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 63
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 64

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 65

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process 


                                             Page 66

Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 67
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 68
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 69
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 70
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 71
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 72
Appendix B
Management Comments to the Draft Report
________________________________________________________________________________________________




                                The DHS Personnel Security Process

                                             Page 73
Appendix C
Background Investigations

                                            National Security               Background Investigation
        Position Sensitivity
                                           Information Access                  Minimum Standard
                           National Security – Access to Classified Information
                                                                           Single Scope Background
         Special Sensitive:
                                                                          Investigation: NAC reviews
 Any position designated at a
                                                                             previous background
    level higher than Critical           Top Secret and more
                                                                            investigations and law
 Sensitive requiring access to            restricted Sensitive
                                                                        enforcement and intelligence
   Sensitive Compartmented                  Compartmented
                                                                         agency records. Includes a
      Information and other                   Information.
                                                                       check of cohabitants, personal
  intelligence-related Special
                                                                       interview, and record searches
      Sensitive Information.
                                                                             for the past 10 years.
                                          Top Secret national
         Critical Sensitive:            security information or
  Critical Sensitive positions             materials, or other
                                                                           Single Scope Background
      have the potential for              positions related to
                                                                                  Investigation
exceptionally grave damage to            national security that
         national security.            require the same degree
                                                of trust.
                                          Access to Secret or
                                                                             Minimum Background
                                         Confidential national
       Non-Critical Sensitive:                                          Investigation: NACI includes a
                                        security information or
Non-Critical Sensitive positions                                            personal interview and
                                       materials, or duties that
 have the potential for serious                                              reference, credit, law
                                      may directly or indirectly
 damage to national security.                                         enforcement agency, residence,
                                      adversely affect national
                                                                           and employment checks.
                                         security operations.
                       Public Trust Law Enforcement or Fiduciary Responsibility
      High Risk: Potential for
       exceptionally serious                                                       Full Field Background
 consequences on the integrity                                                          Investigation:
    and efficiency of a service.                                                  Minimum background
                                                      None
 Duties especially critical to the                                         investigation covering 5 years of
   agency or program mission                                                  employment, residential, and
       with a broad scope of                                                       educational history.
  responsibility and authority.
 Moderate Risk: Considers the
     potential for moderate to
 serious affect on the integrity
  and efficiency of the service.
 Duties considerably important                        None                 Minimum Background Investigation
     to the agency or program
      mission with significant
     program responsibility or
         delivery of service.
      Non-Sensitive/Low Risk:
    Considers the potential for                                                 National Agency Check with
  limited affect on the integrity                                          Inquiries: NACI and employment,
  and efficiency of the service.                      None                     education, law enforcement
 Duties and responsibilities of                                             agency, and personal reference
limited relation to an agency or                                                           checks.
          program mission.
*Information in this chart was accurate as of March 2009. It is anticipated that changes will be made based
on findings by the Joint Security and Suitability Reform Team.


                                  The DHS Personnel Security Process 


                                               Page 74 

Appendix D
General Personnel Security Clearance Process


 Pos t on Des gnat on
 Background Invest gat on




                            The DHS Personnel Security Process

                                         Page 75
Appendix D
General Personnel Security Clearance Process




                          The DHS Personnel Security Process 


                                       Page 76

Appendix E
Component Specific Personnel Security Information

The following provides general information on the mission and role of component
personnel security offices. The flowcharts do not include detailed decision points in the
process nor variations applied for processing contractors. This information is current as
of March 2009.

DHS Personnel Security Division

OCSO has oversight responsibilities for the DHS Personnel Security Program, to include
issuing, implementing, and complying with policies and procedures. PSD is one of seven
divisions under the DHS Office of Security. DHS PSD is responsible for developing and
overseeing DHS personnel security policies governing background investigation and
adjudications. PSD also manages and implements the employee suitability and security
clearance program for all employees at headquarters. PSD develops department-wide
security policies and assists the Administrative Security Division with compliance
reviews. The Project Management Branch is responsible for developing enterprise
systems and other special projects. Figure 17 describes the PSD workflow process.

Figure 17. The DHS PSD Personnel Security Process




Source: Data derived from DHS PSD documents.




                               The DHS Personnel Security Process

                                               Page 77
Appendix E
Component Specific Personnel Security Information

United States Customs and Border Protection

CBP is responsible for detecting and preventing illegal aliens, cargo, drugs, terrorists, and
terrorist weapons from entering the United States. To achieve this goal, CBP Personnel
Security Division (PerSec) is part of the Office of Internal Affairs and is responsible for
the development of CBP policy and procedures, as well as the implementation and
administration of all aspects of the Personnel Security Program. Figure 18 describes the
CBP workflow process.

Figure 18. The CBP Personnel Security Process




Source: Data derived from CBP documents.




                                The DHS Personnel Security Process

                                             Page 78
Appendix E
Component Specific Personnel Security Information

Federal Emergency Management Agency

FEMA’s primary mission is to provide disaster assistance and protect the Nation from all
hazards. This includes natural disasters, acts of terrorism, and other manmade disasters.
FEMA PerSec is part of the Human Resources Office and operates under the Customer
Service Unit. Figure 20 describes the FEMA workflow process.

Figure 20. The FEMA Personnel Security Branch Process




Source: Data derived from FEMA documents.




                               The DHS Personnel Security Process

                                            Page 79
Appendix E
Component Specific Personnel Security Information

Federal Law Enforcement Training Center
FLETC is responsible for training employees who support the federal law enforcement
community. FLETC also provides services to state, local, and international law
enforcement agencies. FLETC PerSec is part of the Security and Emergency
Management Division. The FLETC PerSec mission is to ensure that only authorized
personnel have access to FLETC facilities and sensitive but unclassified and national
security information. FLETC PerSec adjudicates all investigations on FLETC federal
and contractor employees. The FLETC PerSec Branch is organized into two units, the
Federal Employee Unit and the Contractors Unit. Figure 21 describes the FLETC
workflow process.

Figure 21. The FLETC Personnel Security Process




Source: Data derived from FLETC documents.




                                The DHS Personnel Security Process

                                             Page 80
Appendix E
Component Specific Personnel Security Information

Immigration and Customs Enforcement

ICE is responsible for identifying criminal activities and eliminating vulnerabilities that
pose a threat to the Nation’s borders, as well as enforcing economic, transportation, and
infrastructure security. ICE PerSec is responsible for processing personnel security
investigations, adjudications, and reinvestigations on federal and contractor employees.
PerSec has offices in Washington, DC; California; and Texas. Each ICE PerSec office is
organized into the core four distinct functions for Intake, EOD, Investigations, and
Adjudications. The DC office supports the entire investigative process. Figure 22
describes the ICE workflow process.

Figure 22. The ICE Personnel Security Unit Process




Source: Data derived from ICE documents.




                                 The DHS Personnel Security Process

                                              Page 81
Appendix E
Component Specific Personnel Security Information

Transportation Security Administration

TSA protects the Nation’s transportation systems to ensure freedom of movement for
people and commerce. With state, local, and regional partners, TSA oversees security for
the highways, railroads, buses, mass transit systems, ports, and U.S airports. TSA PerSec
is located under the Office of Security. TSA PerSec is organized into two branches,
Adjudications and Operational Support. Figure 23 describes the TSA workflow process.

Figure 23. The TSA Personnel Security Process




Source: Data derived from TSA documents.




                                The DHS Personnel Security Process

                                             Page 82
Appendix E
Component Specific Personnel Security Information

United States Coast Guard

USCG is a branch of the United States Armed Forces. It is unique in that it is also a
maritime law enforcement agency and a federal regulatory agency under DHS. The
USCG mission is to protect the public, the environment, and U.S. economic and security
interests in any maritime region. The Coast Guard Security Center (SECCEN) in
Chesapeake, Virginia, is the central adjudicating facility for the processing and
maintenance of all USCG personnel security files. SECCEN is an operational division
under the USCG Office of Security Policy and Management. SECCEN is functionally
organized into three branches for uniformed members, federal civilians, and technical
security employees. Figure 24 describes the USCG workflow process.

Figure 24. The USCG Personnel Security Process




Source: Data derived from USCG documents.




                               The DHS Personnel Security Process

                                            Page 83
Appendix E
Component Specific Personnel Security Information

United States Citizenship and Immigration Services

USCIS is charged with administering immigration services and benefits by processing
immigrant visa petitions, naturalization petitions, and asylum and refugee applications.
The USCIS PerSec, headquartered in Burlington, Vermont, is part of the Office of
Security and Integrity. USCIS PerSec screening processes involve a security EOD and
suitability determination for all federal and contractor applicants. USCIS PerSec also
conducts internal selection, federal transfer approvals, and background investigation
initiation. Figure 19 describes the USCIS workflow process.

Figure 19. The USCIS Personnel Security Division Process




Source: Data derived from USCIS documents.




                                The DHS Personnel Security Process

                                             Page 84
Appendix E
Component Specific Personnel Security Information

United States Secret Service

The USSS mission is to safeguard the Nation’s financial infrastructure and payment
systems to preserve the integrity of the economy, and to protect national leaders, visiting
heads of state and government, designated sites, and national special security events.
USSS PerSec is one of three branches in the Security Clearance Division under the Office
of Human Resources and Training. Figure 25 describes the USSS workflow process.

Figure 25. The USSS Personnel Security Branch Process




 Source: Data derived from USSS documents.




                               The DHS Personnel Security Process

                                             Page 85
Appendix F
Major Contributors to This Report


                   Douglas Ellice, Chief Inspector
                   Megan McNeely Reedy, Lead Inspector
                   Susan Fischer, Inspector
                   Pharyn Smith, Inspector




                          The DHS Personnel Security Process

                                       Page 86
Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS Component Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                             The DHS Personnel Security Process 


                                          Page 87 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
